Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




   UTAH DID NOT PROPERLY
    PAY SOME MEDICARE
DEDUCTIBLES AND COINSURANCE




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.



                                                 Patrick J. Cogley
                                             Regional Inspector General

                                                    January 2014
                                                    A-07-13-03191
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

  Utah claimed approximately $660,000 of unallowable Medicaid payments for Medicare
  deductibles and coinsurance for services during Federal fiscal years 2011 and 2012.


WHY WE DID THIS REVIEW

Medicaid pays for Medicare deductibles and coinsurance to providers on behalf of some
individuals who are entitled to both Medicare and Medicaid benefits. In Utah, the Department of
Health, Division of Medicaid & Health Financing (State agency), administers the Medicaid
program. Previous Office of Inspector General reviews found that other States did not always
claim Medicaid payments for Medicare deductibles and coinsurance (crossover claims) in
accordance with Federal requirements and the approved State plan.

The objective of this review was to determine whether the State agency claimed Medicaid payments
for Medicare deductibles and coinsurance in accordance with Federal requirements and the
approved State plan.

BACKGROUND

In Utah, the State agency is responsible for processing crossover claims. Those responsibilities
include establishing systems and internal controls, which include policies and procedures to
accurately pay Medicare deductibles and coinsurance in accordance with the State plan.

To execute the provisions of the State plan for Medicare services, the State agency should
compare the Medicare payment to the State Medicaid plan rate for each crossover claim to
determine the allowable payment of Medicare deductibles and coinsurance. Based on this
comparison, the allowable payment is the lesser of (1) the Medicaid-allowed charge minus the
Medicare payment or (2) the sum of the Medicare deductibles and coinsurance.

The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$3.6 billion (approximately $2.7 billion Federal share) during Federal fiscal years (FYs) 2011
and 2012 (October 1, 2010, through September 30, 2012). As part of these Medicaid payments,
the State agency claimed approximately $31.4 million (approximately $23.2 million Federal
share) for payments for Medicare deductibles and coinsurance.

WHAT WE FOUND

During FYs 2011 and 2012, the State agency did not always claim Medicaid payments for
Medicare deductibles and coinsurance in accordance with Federal requirements and the approved
State plan. Specifically, the State agency did not limit payment of Medicare deductibles and
coinsurance by State Medicaid plan rates as required under the State plan. Because Federal
requirements provide that a State plan for medical assistance is mandatory upon the State and all
of its political subdivisions, these claims thus violated Federal requirements as well as the
requirements of the State plan.


Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                    i
These errors occurred because the State agency did not compare the Medicare payment to the
State Medicaid plan rate as required by the State plan. The State agency did not make this
comparison because it did not have policies and procedures requiring it to do so for all Medicare
crossover claims. As a result, the State agency claimed unallowable Medicaid payments of
$905,354 ($660,453 Federal share) during FYs 2011 and 2012.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $660,453 to the Federal Government for unallowable Medicaid payments for
        Medicare deductibles and coinsurance and

    •   develop and implement policies and procedures to ensure that it compares the Medicare
        payment to the State Medicaid plan rate, as required by the State plan, to determine the
        allowable Medicare deductibles and coinsurance for all crossover claims.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it had taken or planned to take. The State agency also
provided additional documentation as to the dollar amounts associated with some of our
findings. After reviewing that documentation, we have accepted those revised dollar amounts
and revised the references to them for this final report.




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                    ii
                                                        TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objective ......................................................................................................................... 1

           Background ..................................................................................................................... 1
               Medicaid Program ................................................................................................... 1
               Medicare Program ................................................................................................... 1
               Medicaid’s Role in Paying Medicare Deductibles and Coinsurance
                for Dual Eligibles .................................................................................................. 2
               Utah Medicaid Program ........................................................................................... 2

           How We Conducted This Review................................................................................... 3

FINDINGS .................................................................................................................................. 3

           State Agency Claimed Unallowable Medicaid Payments .............................................. 3

           State Agency Did Not Have Adequate Policies and Procedures .................................... 4

RECOMMENDATIONS ............................................................................................................ 4

STATE AGENCY COMMENTS AND OUR RESPONSE....................................................... 5

APPENDIXES

           A: Related Office of Inspector General Reports ............................................................ 6

           B: Dual Eligible Groups and Details of the Medicaid’s Role in
              Paying Medicare Deductibles and Coinsurance ....................................................... 7

           C: Audit Scope and Methodology.................................................................................. 8

           D: Federal and State Requirements Related to Medicaid
              Payments for Medicare Deductibles and Coinsurance ........................................... 10

           E: State Agency Comments ......................................................................................... 11




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                                                                    iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Medicaid pays for Medicare deductibles and coinsurance to providers on behalf of some
individuals who are entitled to both Medicare and Medicaid benefits. In Utah, the Department of
Health, Division of Medicaid & Health Financing (State agency), administers the Medicaid
program. Previous Office of Inspector General reviews (Appendix A) found that other States did
not always claim Medicaid payments for Medicare deductibles and coinsurance (crossover
claims) in accordance with Federal requirements and the approved State plan.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid payments for Medicare
deductibles and coinsurance in accordance with Federal requirements and the approved State plan.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), reports actual Medicaid expenditures for each quarter and
is used by CMS to reimburse States for the Federal share of Medicaid expenditures. The
reported amounts must be actual expenditures with supporting documentation. The amount that
the Federal Government reimburses to State Medicaid agencies, known as Federal financial
participation or Federal share, is determined by the Federal medical assistance percentage
(FMAP), which varies based on a State’s relative per capita income. Although FMAPs are
adjusted annually for economic changes in the States, Congress may increase or decrease
FMAPs at any time. During Federal fiscal years (FYs) 2011 and 2012 (October 1, 2010, through
September 30, 2012), Utah’s FMAP ranged from 70.99 percent to 80.78 percent. 1

Medicare Program

The Medicare program provides health insurance for people aged 65 and over, people with
disabilities, and people with permanent kidney disease. CMS, which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted by providers.


1
 Under the provisions of the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, as amended by
P.L. No. 111-226, States’ FMAPs were temporarily increased for the period October 1, 2008, through June 30, 2011.

Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                                1
Medicare helps cover medically necessary inpatient services, nursing home services, doctors’
services and tests, outpatient care, home health services, and durable medical equipment.

Medicaid’s Role in Paying Medicare Deductibles and Coinsurance
for Dual Eligibles

“Dual eligibles” are individuals who are entitled to both Medicare and some form of Medicaid
benefits. A dual eligible may be classified into one of several groups. Several of these groups
are qualified to have their Medicare deductibles and coinsurance paid for by the Medicaid
program.

After the Medicare contractor pays a Medicare claim for a dual eligible and assesses the
Medicare deductibles and coinsurance, the contractor forwards the crossover claim information
to the appropriate State’s Medicaid program. The State Medicaid program determines, on the
basis of the requirements established in its State plan, whether to pay part or all of the Medicare
deductibles and coinsurance and then pays the provider through the usual Medicaid payment
system. 2 In all cases, the amount paid by the State, if any, is payment in full for Medicare
deductibles and coinsurance.

Appendix B contains an explanation of the dual eligible groups and details of Medicaid’s role in
paying Medicare deductibles and coinsurance.

Utah Medicaid Program

In Utah, the State agency is responsible for processing crossover claims. Those responsibilities
include establishing systems and internal controls, which include policies and procedures to
accurately pay Medicare deductibles and coinsurance in accordance with the State plan.

The Utah State plan requires coordination of Medicaid with Medicare and provides methods and
standards for the payment of crossover claims. The State plan limits the payment of Medicare
deductibles and coinsurance to four specified groups of dual eligible beneficiaries. Payment is
limited by the State plan rate for all Medicare services.

To execute the provisions of the State plan for Medicare services, the State agency should
compare the Medicare payment to the State Medicaid plan rate for each crossover claim to
determine the allowable payment of Medicare deductibles and coinsurance. Based on this
comparison, the allowable payment is the lesser of (1) the Medicaid-allowed charge minus the
Medicare payment or (2) the sum of the Medicare deductibles and coinsurance.

The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$3.6 billion (approximately $2.7 billion Federal share) during FYs 2011 and 2012. As part of these
Medicaid payments, the State agency claimed approximately $31.4 million (approximately
$23.2 million Federal share) for payments for Medicare deductibles and coinsurance.


2
  The State agency uses the Medicaid Management Information System (MMIS), a computerized payment and
information reporting system, to process and pay Medicaid claims.

Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                         2
HOW WE CONDUCTED THIS REVIEW

We reviewed claimed Medicaid payments for Medicare deductibles and coinsurance totaling
approximately $31.4 million (approximately $23.2 Federal share) for which the State agency
claimed Federal reimbursement during FYs 2011 and 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix C contains details of our audit scope and methodology.

                                              FINDINGS

During FYs 2011 and 2012, the State agency did not always claim Medicaid payments for
Medicare deductibles and coinsurance in accordance with Federal requirements and the approved
State plan. Specifically, the State agency did not limit payment of Medicare deductibles and
coinsurance by State Medicaid plan rates as required under the State plan. Because Federal
requirements provide that a State plan for medical assistance is mandatory upon the State and all
of its political subdivisions, these claims thus violated Federal requirements as well as the
requirements of the State plan.

These errors occurred because the State agency did not compare the Medicare payment to the
State Medicaid plan rate as required by the State plan. The State agency did not make this
comparison because it did not have policies and procedures requiring it to do so for all Medicare
crossover claims. As a result, the State agency claimed unallowable Medicaid payments of
$905,354 ($660,453 Federal share) during FYs 2011 and 2012.

STATE AGENCY CLAIMED UNALLOWABLE MEDICAID PAYMENTS

The State agency must comply with certain Federal requirements (the Social Security Act (the
Act), § 1902(a)(1)) and implementing regulations (42 CFR § 431.50(b)(1)), which provide that a
State plan for medical assistance is mandatory upon the State and all of its political subdivisions.

The Utah State plan, section 3.2(b), requires coordination of Medicaid with Medicare and
provides methods and standards for payment of Medicare deductibles and coinsurance. In
addition, the State plan (Supplement 1 to Attachment 4.19-B) limits payment of Medicare
deductibles and coinsurance on behalf of beneficiaries to the amount, if any, by which the State
Medicaid plan rate exceeds the Medicare payment.

Details on the Federal and State requirements related to Medicaid payments for Medicare
deductibles and coinsurance appear in Appendix D.




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                    3
Contrary to these Federal and State requirements, the State agency did not always limit payment
of Medicare deductible and coinsurance claims to the State plan rate. For those claims, the State
agency paid $31,376,348 but should have paid $30,470,994, a difference of $905,354 ($660,453
Federal share).

STATE AGENCY DID NOT HAVE ADEQUATE POLICIES AND PROCEDURES

The State agency did not compare the Medicare payments to the State Medicaid plan rate to
determine the allowable Medicare deductibles and coinsurance for all crossover claims. The
table below presents three examples, using actual values drawn from the claims we reviewed, in
determining the allowable Medicare deductibles and coinsurance.

                                       Sample Crossover Claims
                       Medicare                                       Medicaid
                                                                         Allowable     Unallowable
                                                                        Payment for    Payment for
                              Medicare                                   Medicare       Medicare
                             Deductibles         State                  Deductibles    Deductibles
                                 and           Medicaid                     and            and
 Claim        Payment        Coinsurance       Plan Rate      Payment Coinsurance      Coinsurance
   A            $15,405            $1,156        $11,225        $1,156           $0          $1,156
   B                503               126            537           126           34              92
   C                 26                 6              27            1             1              0

Notes Claim A: State Medicaid plan rate is lower than Medicare payment.
      Claim B: State Medicaid plan rate is higher than Medicare payment.
      Claim C: State Medicaid plan rate is higher than Medicare payment.

These discrepancies occurred because the State agency did not have policies and procedures
requiring it to compare the Medicare payment to the State Medicaid plan rate for all Medicare
crossover claims. As a result, the State agency claimed unallowable Medicaid payments of
$905,354 ($660,453 Federal share) during FYs 2011 and 2012.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund $660,453 to the Federal Government for unallowable Medicaid payments for
        Medicare deductibles and coinsurance and

    •   develop and implement policies and procedures to ensure that it compares the Medicare
        payment to the State Medicaid plan rate, as required by the State plan, to determine the
        allowable Medicare deductibles and coinsurance for all crossover claims.




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                    4
                   STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it had taken or planned to take. The State agency also
provided additional documentation as to the dollar amounts associated with some of our
findings. After reviewing that documentation, we have accepted those revised dollar amounts
and revised the references to them for this final report.

The State agency’s comments appear in their entirety as Appendix E.




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                5
          APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                            Report Title                                Report Number   Date Issued
Review of Nebraska’s Medicaid Payments for Dual Eligible                A-07-11-03161    2/6/2012
Individuals’ Medicare Part A Deductibles and Coinsurance
Nebraska Did Not Properly Pay Some Medicare Part B                      A-07-11-03168   2/29/2012
Deductibles and Coinsurance
Montana Did Not Properly Pay Medicare Part B Deductibles                A-07-11-03172   6/18/2012
and Coinsurance for Outpatient Services
Iowa Did Not Properly Pay Some Medicare Part A and Part B               A-07-12-03178   11/20/2012
Deductibles and Coinsurance




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                       6
APPENDIX B: DUAL ELIGIBLE GROUPS AND DETAILS OF MEDICAID’S ROLE IN
          PAYING MEDICARE DEDUCTIBLES AND COINSURANCE

Dual eligibles may be classified into several groups, including but not limited to: Qualified
Medicare Beneficiary (QMB) without full Medicaid (QMB Only), QMB with full Medicaid
(QMB Plus), Specified Low-Income Beneficiary with full Medicaid (SLMB Plus), and Full
Benefit Dual Eligible (FBDE). These eligibility groups are qualified to have their Medicare
Part B deductibles and coinsurance paid for by the Medicaid program. 3

After the Medicare contractor pays a Medicare claim for a dual eligible and assesses the
Medicare deductibles and coinsurance, the contractor forwards the crossover claim information
to the appropriate State’s Medicaid program. The State Medicaid program then determines, on
the basis of the requirements established in its State plan, whether to pay part or all of the
Medicare deductibles and coinsurance and then pays the provider through the usual Medicaid
payment system (the MMIS).

For beneficiaries classified in the QMB Only and QMB Plus eligibility groups, States are
mandated to pay Medicare deductibles and coinsurance. Federal statute permits Medicare
payment for a service, plus the Medicaid payment for any Medicare deductibles and coinsurance,
to exceed the State plan rate for the service (the Act, § 1902(n)(2)). This statute adds, however,
that a State is not required to pay for Medicare deductibles and coinsurance on behalf of QMB
Only and QMB Plus beneficiaries to the extent that the Medicare payment for the service
exceeds what the State Medicaid program would have paid on behalf of a Medicaid-only
recipient. If a State caps its Medicare deductible and coinsurance coverage, and the Medicare
payment for a service is equal to or exceeds the State Medicaid plan rate, the State makes no
payment for Medicare deductibles and coinsurance. If, on the other hand, the Medicare payment
is less than the State Medicaid plan rate for a service, the State pays the Medicare deductibles
and coinsurance up to the difference between the amount paid by Medicare and the State
Medicaid plan rate.

For beneficiaries classified in the SLMB Plus and FBDE eligibility groups, States are not
mandated to pay Medicare deductibles and coinsurance. However, because SLMB Plus and
FBDE beneficiaries are entitled to full Medicaid benefits, they may be entitled to have Medicare
deductibles and coinsurance paid on their behalf when a service is covered by both Medicare and
Medicaid. For Medicaid-covered services, the State agency will pay the difference between the
State Medicaid plan rate and the Medicare payment.

The Utah State plan requires coordination of Medicaid with Medicare and provides methods and
standards for the payment of crossover claims. The State plan limits the payment of Medicare
deductibles and coinsurance for QMB Only, QMB Plus, SLMB Plus, and FBDE beneficiaries by
the State Medicaid plan rate for all Medicare services.


3
 There are other groups of dual eligible beneficiaries who are not qualified to have their Medicare deductibles and
coinsurance paid for by the Medicaid program: SLMB without full Medicaid, Qualified Disabled and Working
Individual, and Qualifying Individual.


Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                                       7
                   APPENDIX C: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed Medicaid payments totaling $31,376,348 ($23,162,302 Federal share) for services
whose payments were limited by the State Medicaid plan rate that the State agency made and
claimed for Federal reimbursement for Medicare deductibles and coinsurance for FYs 2011 and
2012. We did not review the overall internal control structure of the State agency or the
Medicaid program. Rather, we reviewed only the internal controls that pertained directly to our
objective.

We performed audit work from June to August 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements and the State Medicaid plan;

    •   interviewed State agency officials to gain an understanding of their policies and
        procedures for claiming Medicare deductibles and coinsurance;

    •   requested and received from the State agency crossover claim data for paid Medicare
        deductibles and coinsurance;

    •   analyzed the crossover claim data and developed a database of payments to providers for
        Medicare deductibles and coinsurance for services whose payments are limited by the
        State Medicaid plan rate;

    •   reviewed all 488,422 crossover claims for FYs 2011 and 2012 and, for each crossover
        claim:

            o reviewed Medicare’s payment and Medicare deductible and coinsurance amounts,

            o reviewed the State Medicaid plan rate,

            o compared Medicare’s payment to the State Medicaid plan rate to determine the
              allowable and unallowable (if any) Medicaid payment of Medicare deductible and
              coinsurance amounts, and

            o verified that the beneficiary in question was in one of the four eligibility groups
              (QMB Only, QMB Plus, SLMB Plus, or FBDE) of dual eligibles; and

    •   discussed the results of our review with State agency officials on September 17, 2013.




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                     8
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                9
APPENDIX D: FEDERAL AND STATE REQUIREMENTS RELATED TO MEDICAID
     PAYMENTS FOR MEDICARE DEDUCTIBLES AND COINSURANCE

FEDERAL REQUIREMENTS

The Act, section 1902(a), states: “A State plan for medical assistance must—(1) provide that it
shall be in effect in all political subdivisions of the State, and, if administered by them, be
mandatory upon them ….”

Federal regulations (42 CFR § 431.50(b)(1)) expand upon this provision of the Act by requiring
that the State plan “… will be in operation statewide through a system of local offices, under
equitable standards for assistance and administration that are mandatory throughout the State.”

The Act, section 1902(n)(1), states:

           In the case of medical assistance furnished under this title for [M]edicare cost-
           sharing respecting the furnishing of a service or item to a qualified [M]edicare
           beneficiary, the State plan may provide payment in an amount with respect to the
           service or item that results in the sum of such payment amount and any amount of
           payment made under title XVIII with respect to the service or item exceeding the
           amount that is otherwise payable under the State plan for the item or service for
           eligible individuals who are not qualified [M]edicare beneficiaries. 4

The Act, section 1902(n)(2), states: “In carrying out paragraph (1), a State is not required to
provide any payment for any expenses incurred relating to payment for deductibles, coinsurance,
or copayments for [M]edicare cost-sharing to the extent that payment under title XVIII for the
service would exceed the payment amount that otherwise would be made under the State plan
under this title for such service if provided to an eligible recipient other than a [M]edicare
beneficiary.”

STATE REQUIREMENTS

The Utah State plan, section 3.2(b), requires coordination of Medicaid with Medicare and
provides methods and standards for payment of Medicare deductibles and coinsurance.

The Utah State plan, Supplement 1 to Attachment 4.19-B, states:

           Medicaid payment for Medicare crossover claims will be the allowed Medicaid
           payment rate less any amounts paid by Medicare and other payors. In the event
           Medicaid does not have a price for codes included on a crossover claim, the
           Medicaid price will be 80 percent of the Medicare price.




4
    Title XVIII of the Act promulgates the Medicare program.

Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                   10
                              APPENDIX E: STATE AGENCY COMMENTS



                                Utah Department of Health
                                W. David Pallon, Ph.D.
                                Executive Director

                               Division of Medicaid and Health Financing
                                Michael Hales
        State of Utah           Depuly Direclm; Utah Department of Health
                                Dlrecto1; Division ofMedicaid and Health Financing
        GARY R. HERBERT
            Guvernor
        SPENCER J. COX
        Lieutemmf Govemor                                                 January 03, 2013



               Patrick J. Cogley
               Regional Inspector General for Audit Services
               Office of Audit Services, Regional VII
               601 East 12th Street, Room 0429
               Kansas City, MO 64106


               Dear Mr. Cogley:

               Thank you for the opportunity to respond to the audit entitled "Utah Did Not Properly Pay Some
               Medicare Deductibles and Coinsurance" (Report# A-07-13-03191). We appreciate the effort
               and professionalism of you and your staff in this review. Likewise, our staff has spent time
               collecting information for your review, answering questions, and planning changes to improve
               the program. We believe that the results of our combined effmts will make a better, more
               efficient program.

               We concur with the recommendations in this report. Our response desctibes the actions the
               Department plans to take to implement the recommendations. The Department of Health is
               committed to the efficient and effective use of taxpayer funds and values the insight this report
               provides on areas that need improvement.


                                                                          Sincerely,




                                                                          Michael Hales
                                                                          Deputy Director, Department of Health
                                                                          Division Director, Medicaid and Health Financing




        .!) ~       UTAH DEPARTMENT OF
                                                                       288 North 1460 West • Sail Lake Cily, UT
        -~~ ,.-     HEALTH                                Mailing Address: P.O. Box 143101 • SaltLakeCily, UT84114-3101
                                                      Telephone (801) 538-6689 • Facsimile (801 ) 538-6478 • www.health.utah.gov




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                                                    11
             Response to Recommendations

             Recommendation 1

                    Refund $687.401 to the Federal Government for unallowable Medicaid payments for
                    Medicare deductibles and coinsurance and;

             Division response:

             We concur with this recommendation.

             The amount that the Division will pay back to CMS is $660,453.42 instead of the $687,40 1
             initially identified. Once all required programming changes were applied to the identified
             claims, the overpayment amount was recalculated to be $660,453.42.

             The Federal share of this refund amount will be returned to CMS and reported on the Quarterly
             CMS-64, line lOA.

             Contact: Rick Platt, Director, Bureau of Financial Services, DMHF 801-538-7015
             Anticipated Implementation Date: Refunds will be compliant with 42 CFR 433.320.

             Recommendation 2

                    Develop and implement policies and procedures to ensure that it compares the Medicare
                    payment to the State Medicaid plan rate, as required by the State Plan, to determine the
                    allowable Medicare deductibles and coinsurance for all crossover claims.

             Division response:

             We concur with this recommendation.

             The Division has made the majority of the corrections necessary in the MMIS to ensure that it
             compares the Medicare payment to the State Medicaid plan rate, as required by the State Plan, to
             detetmine the allowable Medicare deductibles and coinsurance for all crossover claims. Final
             programming adjustments will be completed by Aprill, 2014.

             Contact: Rick Platt, Director, Bureau ofFinancial Services, DMHF 801 -538-7015
             Anticipated Implementation Date: April I, 2014.




Utah Medicaid Payments for Medicare Deductibles and Coinsurance (A-07-13-03191)                                 12
